OGLETREE, DEAKINS, NASH,
SMOAK & STEWART, P.C.

Ogletree Attorneys at Law
° 100 North Tampa Street, Suite 3600
Tampa, FL 33602
Deakins Telephone: 813-289-1247
Facsimile: 813-289-6530
www.ogletreedeakins.com

Peter W. Zinober

813.221.7234
Peter.zinober@ogletree.com
Gretchen M. Lehman
813-221-7249
gretchen.lehman@ogletree.com

September 17, 2021

Clerk of the Supreme Court of the United States
1 First Street, N.E.
Washington, DC 20543-0001

RE: Jacquelyn Bouazizi v. Hillsborough County Civil Service Board, et al.
U.S. Supreme Court Case No. 21-315
Motion for Extension of Time to Respond to Petition for Writ of Certiorari

Dear Madam/Sir:

The undersigned firm represents Respondent Hillsborough County Civil Service Board!
(HCCSB) in its response to the Petition for Writ of Certiorari filed by Petitioner Jacquelyn Bouazizi
and currently before this Court. Pursuant to Rule 30.4 of the Rules of the Supreme Court of the
United States, HCCSB respectfully requests that the time period for filing a response in opposition
to the Petition for Writ of Certiorari be extended for sixty (60) days, up to and including
November 29, 2021. This request is necessary for the following reasons:

The United States Court of Appeals for the Eleventh Circuit issued its Order affirming the
decision of the United States District Court in and for the Middle District of Florida on January 29,
2021. As Plaintiff did not file her Petition for Writ of Certiorari until August 26, 2021, almost
seven months following that decision, this Petition was unexpected.

The Petition was placed on the docket on August 31, 2021, and HCCSB's response is

currently due on September 30, 2021. This extension is being sought more than ten days prior to the
deadline.

| Respondent Hillsborough County is represented by separate counsel.

 

Atlanta * Austin * Bedin (Gemnany) * Birmingham * Boston * Charleston * Charlotte * Chicago * Cleveland * Columbia * Dallas * Denver * Detroit Metro * Greenville * Houston
Indianapolis * Kansas City " Las Vegas * London (England) « Los Angeles * Memphis * Mexico City (Mexico) * Miami * Milwaukee * Minneapolis * Montréal (Canada) * Morristown
Nashville * New Oxleans * New York City Oklahoma City * Orange County * Paris (France) * Philadelphia * Phoenix « Pittsburgh * Portland, ME * Portland, OR * Raleigh * Richmond
St. Louis * St. Thomas * Sacramento * San Antonio * San Diego * San Francisco * Seattle = Stamford * Tampa * Toronto (Canada) * Torrance * Tucson * Washington

 
   
    
 

 
September 17, 2021
Page 2

Counsel for HCCSB have had significant scheduling conflicts with previously scheduled
professional obligations during this thirty-day time period. By way of illustration, HCCSB's
counsel had previously scheduled 12 depositions in other cases during this thirty-day period, in
additional to significant other professional obligations. Counsel has significant obligations already
scheduled for October 2021 as well, included a scheduled absence from the office from October 14-
21, 2021.

Additionally, HCCSB's counsel, Gretchen Lehman, who represented HCCSB in the
proceedings before the District Court for the Middle District of Florida and the Eleventh Circuit
Court of Appeals, is seeking admission to the Bar of the Supreme Court of the United States in
order to continue to represent Respondent in this proceeding.

Accordingly, HCCSB respectfully requests that the time in which HCCSB may respond to
the Petition for Writ of Certiorari be extended to and including November 29, 2021.

Should you require anything further, please contact us. Thank you for your attention to this
matter.

Respgettfully submitted,

heuaber

Peter W. Zinober
Gretchen M. Lehman

1 HEREBY CERTIFY that on this 17th day of September, 2021 the foregoing was
electronically filed and the original was sent by U.S. First Class Mail to the U.S. Supreme Court and
that a true and correct copy has been served by email and U.S. First Class Mail upon Pro Se
Petitioner:

Jacquelyn Bouazizi
3619 E. Caracas Street
Tampa, FL 33610
mom1luv9@aol.com

Mid Deuba,

Péter W. Zinober

  

28768037.1
